          Office of Inspector General




September 29, 2005

ELLIS A. BURGOYNE
VICE PRESIDENT, DELIVERY AND RETAIL

SUBJECT:       Audit Report – Delivery Vehicle Utilization – General Services
               Administration Leased Vehicles (Report Number DR-AR-05-018)

This report presents the results of our self-initiated audit of the Postal Service’s delivery
vehicle utilization, specifically leased General Services Administration (GSA) vehicles
(Project Number 05YG025DR000). Our objective was to assess the management
and control of vehicles in support of delivery operations. We evaluated whether
management used Postal Service-owned delivery vehicles prior to leasing GSA vehicles
for delivery operations. This is the first in a series of audit reports addressing delivery
and administrative vehicle utilization.

Management needs to more effectively use Postal Service-owned delivery vehicles
before leasing GSA vehicles for delivery operations. Seven of the nine Postal Service
areas leased a total of 715 GSA vehicles for delivery, even though Postal Service
Headquarters identified a nationwide overage of 787 Postal Service-owned vehicles.
Leasing excess GSA vehicles occurred primarily because management did not
always enforce procedures for lease approvals and justifications. Management also did
not evaluate existing leases to determine current vehicles’ requirements.
Eliminating these GSA leases would save the Postal Service over $1.7 million annually
or over $5.3 million during the next 3 years. We will report the $5.3 million as funds put
to better use in our Semiannual Report to Congress.

We recommended the Postal Service eliminate the use of GSA-leased vehicles for
delivery and meet their delivery needs by using existing Postal Service-owned vehicle
inventories and inter-area reallocations. The Postal Service should also require
managers to enforce policy for leasing justifications and approvals. In addition, we
recommended management establish procedures to periodically review and evaluate
GSA leases for continued use.

Management agreed with our recommendations, but had concerns regarding our
projection of savings data used in our analysis. We addressed management’s concerns
in our evaluations of management’s comments. Management’s comments and our
evaluation of these comments are included in this report. Management’s actions taken
or planned are responsive to our findings and recommendations and should correct the
issues identified in our findings.

The Office of Inspector General (OIG) considers recommendations 1, 2, and 4
significant and, therefore, requires OIG concurrence before closure. Consequently, the
OIG requests written confirmation when corrective action(s) are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information please contact Rita Oliver,
Director, Delivery and Retail, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: William P. Galligan
    Alexander Lazaroff
    Jo Ann Feindt
    David Solomon
    Megan Brennan
    Al Iniguez
    William Brown
    George Lopez
    Sylvester Black
    Jerry Lane
    Wayne Corey
    Steven R. Phelps
Delivery Vehicle Utilization – General Services                                              DR-AR-05-018
 Administration Leased Vehicles


                                          INTRODUCTION
Background                      The Postal Service will spend approximately $10 million in
                                fiscal year (FY) 2005 to lease about 2,800 General Services
                                Administration (GSA) vehicles nationwide for delivery and
                                administrative support operations. Over 25 percent (715) of
                                these vehicles are being used to deliver mail. Seven of the
                                nine areas have leased GSA vehicles for mail delivery;
                                however, the majority of these leases occurred in the
                                New York Metro, Northeast, and Eastern Areas.

                                In FY 2002, headquarters’ Delivery Vehicle Operations
                                reviewed the allocation of delivery vehicles in each Postal
                                Service area. In May 2002, headquarters directed a national
                                effort to reallocate vehicles to ensure that they were available
                                where necessary for delivery purposes and that the Postal
                                Service use funds wisely.

                                Headquarters’ Delivery Vehicle Operations conducted an
                                analysis of Postal Service-owned delivery vehicles in
                                March 2005. This analysis compared the number of
                                motorized routes to the vehicle inventory available to meet the
                                needs of the routes. They did not factor the use of leased
                                vehicles into this analysis. Although the analysis showed a
                                shortage of Postal Service-owned delivery vehicles in
                                three of the nine areas, it also showed a nationwide overage
                                of 787 vehicles.

Typical Delivery
Vehicles




                                    Postal Service-owned delivery vehicle   GSA-leased delivery vehicle

                                Postal Service guidance requires full use of Postal Service-
                                owned delivery vehicles before management approves leased
                                vehicles. The Postal Service emphasized this policy in a
                                November 2003 memo from the senior vice president,
                                Operations. The policy requires all requests for rental or
                                lease delivery vehicles to be accompanied by a Postal Service
                                (PS) Form 4515, Vehicle Request, Review, and Approval,
                                showing that no Postal Service-owned or other leased




                                                      1
Delivery Vehicle Utilization – General Services                                    DR-AR-05-018
 Administration Leased Vehicles


                                vehicles are available for use in the district, area, or
                                nationwide. This form requires approval from the vehicle
                                maintenance facility (VMF), area, and headquarters before a
                                lease is approved.

Objective, Scope,               The objective of our audit was to assess the management and
and Methodology                 control of vehicles used in support of delivery operations.
                                Specifically, we evaluated whether management effectively
                                used Postal Service-owned delivery vehicles before leasing
                                GSA vehicles for delivery operations.

                                To accomplish our objective, we reviewed documentation and
                                applicable policies and procedures with regard to delivery
                                vehicle management and control. We also reviewed
                                methodologies used by Postal Service officials to forecast
                                delivery vehicle requirements. In addition, we interviewed
                                managers and employees and obtained documentation from
                                various Postal Service areas, districts, and VMFs.

                                We reviewed controls over GSA-leased delivery vehicle
                                inventories, inventoried selected GSA vehicles at
                                one location, reviewed data from the GSA Fleet Drive-Thru
                                application, and examined applicable reports to determine
                                vehicle inventory and use of vehicles.

                                We conducted this audit from May through September 2005,
                                in accordance with generally accepted government auditing
                                standards and included such tests of internal controls as we
                                considered necessary under the circumstances. We tested
                                the reliability of computer-generated data through discussions
                                with GSA representatives and Postal Service officials
                                responsible for managing GSA leased vehicles and review of
                                supporting documentation. We discussed our observations
                                and conclusions with appropriate management officials and
                                included their comments where appropriate.

Prior Audit Coverage            The Office of Inspector General (OIG) identified one audit
                                related to our objective.

                                Vehicle Management-Delivery Vehicles - Buy versus Lease
                                (Report Number NL-AR-04-005, dated September 30, 2004).
                                The report stated that from FYs 1991 through 2003, the
                                Postal Service may have missed an opportunity to save about
                                $43 million by replacing commercially leased vehicles with
                                Postal Service-owned long-life vehicles. We noted that the



                                                  2
Delivery Vehicle Utilization – General Services                                       DR-AR-05-018
 Administration Leased Vehicles


                                cost of a long-life vehicle was substantially less than the cost
                                of a commercially leased vehicle and that the Postal Service
                                could realize significant savings for every leased vehicle it
                                replaced with a long-life vehicle and substantially reduce the
                                inventory of leased vehicles.




                                                  3
Delivery Vehicle Utilization – General Services                                                       DR-AR-05-018
 Administration Leased Vehicles


                                            AUDIT RESULTS
GSA Vehicles               Management needs to more effectively use Postal Service-owned
Leased for                 delivery vehicles before leasing GSA vehicles for delivery
Delivery                   operations. Seven of the nine Postal Service areas leased a total
Operations                 of 715 GSA vehicles for delivery, even though Postal Service
                           Headquarters had identified a nationwide overage of 787 Postal
                           Service-owned vehicles. Leasing excess GSA vehicles occurred
                           primarily because management did not always enforce procedures
                           for lease approvals and justifications. Also, management did not
                           monitor, review, and evaluate existing leases to determine current
                           vehicle requirements. Eliminating these GSA leases would save
                           the Postal Service over $1.7 million annually or over $5.3 million
                           during the next 3 years. (See Appendix A.)

                           Several locations leased vehicles even though the area had an
                           overage in Postal Service-owned vehicles, while others with
                           shortages leased vehicles in excess of the identified shortage. As
                           shown in Table 1, we identified the Eastern Area as having an
                           overage of 135 Postal Service-owned delivery vehicles; however,
                           they leased 227 GSA vehicles for delivery purposes. The
                           New York Metro Area, with a shortage of 98 vehicles, leased
                           333 vehicles or 235 more than the identified shortage.

                            Also, as shown in Table 1, Postal Service area officials can
                            eliminate 575 of the 715 existing GSA leases by using existing
                            resources. In addition, since policy authorizes Postal Service
                            Headquarters to reallocate vehicles as necessary to meet
                            shortfalls through inter-area transfers, they can also eliminate the
                            remaining 140 GSA-leased vehicles.

                                       Table 1. Analysis of Postal Service-owned Delivery Vehicles versus
                                                 GSA Vehicles Leased for Delivery Operations.
                                  1
                              Area                NY     NE     EA    WE   PA      SW    SE      GL     CM    Total
                              Overage/Shortage    (98)   (42)   135   78   (140)   398   332     17     133    787
                              Postal Service-
                              owned
                              GSA Vehicles        333    117    227   2    0       8     16      12      0    715
                              Leased for
                              Delivery
                              GSA Leases to be    235    75     227   2    0       8     16      12      0    575
                              Eliminated by
                              Areas
                              Leases Requiring    98     42     0     0    0       0      0       0      0    140
                              Headquarters
                              Reallocation of
                              Postal Service-
                              owned Vehicles


1
 The full names of the areas in the table in order of appearance are: New York Metro, Northeast, Eastern, Western,
Pacific, Southwest, Southeast, Great Lakes, and Capital Metro.




                                                          4
Delivery Vehicle Utilization – General Services                                    DR-AR-05-018
 Administration Leased Vehicles



                           Leasing GSA vehicles in excess of requirements occurred
                           primarily because management did not always enforce
                           procedures for lease approvals and justifications. Also,
                           management did not review documentation to monitor and
                           assess the need of GSA-leased delivery vehicles. Management
                           did not always approve GSA leases or periodically evaluate
                           leases to determine whether they were still necessary or whether
                           Postal Service-owned vehicles were available to replace existing
                           leases.

                           The Postal Service often obtained GSA leases at the unit or VMF
                           level without area or headquarters-level approval or knowledge.
                           Specifically, the requestor did not always complete PS
                           Form 4515, Vehicle Request, Review, and Approval, as required;
                           therefore, area and headquarters officials were not involved in
                           the justification and approval decisions.

                           Also, the area Vehicle Maintenance program analysts we
                           interviewed stated that they did not always receive requests and
                           documentation from units to justify leasing GSA vehicles. If
                           management followed the process for approving leases, an
                           analysis by the area would lead to a headquarters’ inter-area
                           transfer of Postal Service-owned vehicles.

                           Further, the Postal Service did not periodically evaluate or
                           revalidate existing leases to determine whether there was a
                           continued requirement for leasing. For example, officials at
                           one VMF informed us that, for the last 10 years, they customarily
                           replaced GSA vehicles within a 3- to 6-year time frame. They do
                           not consider replacement vehicles “new” leases; therefore, they
                           do not require approval or re-justification.

                           Unit officials usually accepted GSA-leased vehicles without
                           determining the availability of Postal Service-owned vehicles.
                           Area Vehicle Maintenance program analysts stated they did not
                           have access to GSA lease inventory data in their area and did not
                           know which GSA-leased vehicles management used for delivery
                           operations.

                           As shown in Figure 1, within the last 3 years, 69 percent of the
                           delivery vehicles currently available were either new or the lease
                           was extended without revalidation.




                                                  5
Delivery Vehicle Utilization – General Services                                           DR-AR-05-018
 Administration Leased Vehicles




                           Figure 1: GSA Delivery Vehicles by Age

                                                  GSA Delivery Vehicles by Age


                                                                7%

                                                          24%
                                                                       ``
                                                                       ``
                                                                            69%




                                     Less than 3 Years              3 to 4 Years   Over 4 Years

                           Source: Postal Service Vehicle Records


                           By following leasing procedures, reallocating delivery vehicles as
                           needed, and periodically reviewing existing leases, the Postal
                           Service can eliminate unnecessary leasing costs.

Recommendation             We recommend the vice president, Delivery and Retail,
                           coordinate with the area vice presidents to:

                           1. Eliminate leased General Services Administration (GSA)
                              vehicles used for delivery in locations where there are
                              overages of Postal Service-owned delivery vehicles and
                              reduce GSA leases in locations where they exceed the
                              shortage of Postal Service-owned vehicles.

Management’s               Management agreed with the recommendation and plans to
Comments                   eliminate all unnecessary GSA vehicles leased for delivery
                           operations by using available Postal Service-owned delivery
                           vehicles. Management disagrees with the quantity of
                           GSA-leased vehicles to be eliminated because they feel
                           management improperly coded some vehicles identified as used
                           for delivery operations. Management plans to initiate action with
                           the area offices and the St. Louis Support Service Center to
                           identify and correct miscoded vehicles. Management’s
                           comments, in their entirety, are included in Appendix B of this
                           report.




                                                      6
Delivery Vehicle Utilization – General Services                                      DR-AR-05-018
 Administration Leased Vehicles




Recommendation             2. Reallocate Postal Service-owned vehicles from areas with
                              overages to areas with shortages to eliminate the remainder of
                              the General Services Administration leases.

Management’s               Management agreed with the recommendation and will continue
Comments                   its practice of reallocating excess resources to meet area delivery
                           route requirements and will reduce or eliminate unnecessary
                           GSA-leased delivery vehicles.

Recommendation             3. Enforce the policy requiring Postal Service Form 4515, Vehicle
                              Request, Review, and Approval, to be completed and
                              approved before leasing.

Management’s               Management agreed with the recommendation and plans to
Comments                   revise and reissue the vehicle-leasing memorandum originally
                           issued by John A. Rapp, former Senior Vice President,
                           Operations. The memorandum, titled Vehicle Rental and Lease
                           Requests – Mandatory Review and Approval Processes, dated
                           November 19, 2003, addresses the policy governing PS
                           Form 4515.

Evaluation of              Management’s comments were responsive to our finding and
Management’s               recommendations 1, 2, and 3. Management’s actions taken or
Comments                   planned are responsive to our finding and recommendations and
                           should correct the issues identified in our finding.

Recommendation             4. Direct area Operations program analysts to establish a
                              process to monitor and periodically review General Services
                              Administration lease expenditures, revalidate justifications for
                              continued leasing, and submit the justification to Postal
                              Service Headquarters manager, Delivery Vehicle Operations.

Management’s               Management agreed with the recommendation and stated Vehicle
Comments                   Operations and the Philadelphia Category Management Center
                           will contact GSA to discuss instituting a more restrictive leasing
                           policy. Management also stated they will obtain an accurate
                           vehicle inventory listing regularly and will disseminate the listing to
                           area managers, Delivery Programs Support, for review and action
                           as warranted.




                                                  7
Delivery Vehicle Utilization – General Services                                    DR-AR-05-018
 Administration Leased Vehicles




Evaluation of              Management’s comments were responsive to our finding and
Management’s               recommendation. We believe the actions management has taken
Comments                   or planned are sufficient to address the issues we identified in our
                           finding.




                                                  8
Delivery Vehicle Utilization – General Services                                     DR-AR-05-018
 Administration Leased Vehicles




Additional                 Although management agreed with the recommendations in this
Management’s               report, they had concerns regarding our projection of funds put to
Comments                   better use and the data used in our analysis. Specifically,
                           management indicated that including the $5.3 million savings,
                           projected over 3 years, in the Semiannual Report to Congress
                           does not recognize or take into account any of management’s
                           initiatives that will lessen the amount or, more importantly,
                           address some of the inaccurate data used to calculate the
                           amount.

Evaluation of              Although we agree that management’s initiatives can and should
Additional                 correct the situation in less than 3 years, audit policy requires us
Management’s               to project savings over the number of years the situation could
Comments                   have continued had the OIG not identified it by an audit. We
                           conservatively used 3 years for our projection because GSA
                           customarily replaced these vehicles every 3 years. Further, our
                           audit showed that management had not intervened for 10 years.




                                                  9
        Delivery Vehicle Utilization – General Services                                                         DR-AR-05-018
         Administration Leased Vehicles


                                                       APPENDIX A

                      OIG CALCULATION OF FUNDS PUT TO BETTER USE
        As shown in the table below, the Office of Inspector General (OIG) identified $5,374,077
        in funds put to better use. The OIG calculated the average lease costs by area and
        then used that figure to establish an annual lease cost. The annual lease cost was then
        projected over 3 years.

    Area               CM          EA          GL         SE            SW       PA       NE          NY           WE       Nationwide
                                                                                                                               Total
                                                                                                                                   2
Shortage/Excess        133         135         17         332           398      -140     -42         -98           78         787
(Postal Service)
Current GSA Leases      0          227         12         16             8        0       117         333           2          715
Vehicles Areas can      0          227         12         16             8        0       75          235           2          575
Eliminate
GSA Leases to be        0           0           0          0             0        0       42          98            0          140
eliminated through
Postal Service
Reallocation
Annual GSA Lease        0       $561,852     $32,100    $38,340        $20,160    0     $289,680   $842,117       $7,104    $1,791,353
Cost
Projected 3-Year       N/A     $1,685,556    $96,300   $115,020        $60,480   N/A    $869,040   $2,526,351     $21,312   $5,374,077
Cost Savings




        2
         These numbers do not total to 787 because of averaging factors and rounding used by Postal Service Headquarters.
        The actual total of the numbers represented is 813. The difference in the two totals will not impact the outcome of
        this report.




                                                                  10
Delivery Vehicle Utilization – General Services            DR-AR-05-018
 Administration Leased Vehicles


                            APPENDIX B. MANAGEMENT’S COMMENTS




                                                  11
Delivery Vehicle Utilization – General Services        DR-AR-05-018
 Administration Leased Vehicles




                                                  12
